                                                        NATIONAL SCIENCE FOUNDA nON
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

Case Number:AI0030017                                                                    Page 1 of 1



               We reviewed an allegation of plagiarism in an NSF proposal. 1 We contacted the Subject2,
         who explained her citation error.

                Determining the amount of copied text. to be de minimis, we sent the Subject a letter,
         reminding her of the importance of properly citing text within NSF proposals.

                    Accordingly, this case is closed.




NSF OIG FOIrn 2 (11102)
